   July 10, 2003




Information
Technology

Systems Inventory to
Support the Business
Enterprise Architecture
(D-2003-117)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ASD(NI2)/DoD CIO Assistant Secretary of Defense (Networks and Information
                    Integration)/Department of Defense Chief Information Officer
BEA              Business Enterprise Architecture
BMMP             Business Management Modernization Program
BMSI             Business Modernization and Systems Integration
CIO              Chief Information Officer
FFMIA            Federal Financial Management Improvement Act
IBM              International Business Machines
IT               Information Technology
MC               Mission Critical
ME               Mission Essential
OMB              Office of Management and Budget
USD(C)/CFO       Under Secretary of Defense (Comptroller)/Chief Financial Officer
          Office of the Inspector General of the Department of Defense
Report No. D-2003-117                                                         July 10, 2003
   (Project No. D2002FG-0156)

                   Systems Inventory to Support the Business
                            Enterprise Architecture

                                 Executive Summary

Who Should Read This Report and Why? Domain process owners responsible for
implementing the Business Enterprise Architecture and all owners of business systems
should read this report. DoD needs to identify all of its business systems so that it can
determine which systems will transition into the Business Enterprise Architecture.

Background. The Secretary of Defense has positioned financial management reform as
one of his highest priorities. On July 19, 2001, the Secretary of Defense issued a
memorandum that established the DoD-wide Financial Management Modernization
Program to correct the financial management systems deficiencies through the
development of a DoD-wide Financial Management Enterprise Architecture. On
May 20, 2003, the Under Secretary of Defense (Comptroller)/Chief Financial Officer
changed the name of the Financial Management Modernization Program and the
Financial Management Enterprise Architecture to the Business Management
Modernization Program and the Business Enterprise Architecture, respectively, to reflect
the focus of transforming DoD business practices. The objective of the DoD Business
Enterprise Architecture is to standardize and streamline DoD financially related business
processes, correct long-standing financial management weaknesses, and ensure
investments in information technology effectively support performance of the DoD
mission. As part of its transition plan, DoD provided Congress a listing of its business
systems, as defined by the Under Secretary of Defense (Comptroller)/Chief Financial
Officer. The systems list included the costs and estimated costs to maintain those
systems during FY 2002 and FY 2003 respectively, and a listing of the legacy systems
that will not be part of the Business Enterprise Architecture. The Business Enterprise
Architecture is partitioned into seven functional process domains. Each domain has an
owner that is responsible for managing and representing the domain needs and priorities
during the development of the enterprise transition plan, validating the schedule for
terminating legacy systems, and implementing the Business Enterprise Architecture
within their respective domains. The domain owners are the Under Secretary of Defense
for Acquisition, Technology, and Logistics; the Under Secretary of Defense
(Comptroller)/DoD Chief Financial Officer; the Under Secretary of Defense for
Personnel and Readiness; and the Assistant Secretary of Defense (Networks and
Information Integration)/DoD Chief Information Officer.

Results. DoD does not have a systems inventory that is synchronized with the Business
Enterprise Architecture initiative and that contributes to the business monitoring and
reporting requirements levied by the Office of Management and Budget. As a result,
DoD does not have a single-source repository to collect its business information, reduce
the burden of multiple and costly data calls, and inform its transforming initiatives. The
Under Secretary of Defense (Comptroller)/Chief Financial Officer and the Assistant
Secretary of Defense (Networks and Information Integration)/Department of Defense
Chief Information Officer should establish a business systems repository and
accompanying procedures for integrity verification. See the Finding section of the report
for the detailed recommendations.

Management Comments and Audit Response. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer concurred with the recommendations and stated
that his office would establish an integrated repository instead of a single repository to
house information that the domain owners will use to control and prioritize architecture
initiatives. We consider the comments partially responsive. We request clarification
regarding the implementation of an integrated repository vice a single database and the
respective controls that will be implemented to ensure data integrity.

We did not receive comments on the draft report, issued April 16, 2003, from the
Assistant Secretary of Defense (Networks and Information Integration)/DoD Chief
Information Officer. Therefore, we request that the Under Secretary of Defense
(Comptroller)/Chief Financial Officer provide additional comments and that the Assistant
Secretary of Defense (Networks and Information Integration)/DoD Chief Information
Officer provide comments by August 11, 2003. See the Finding section of the report for
a discussion of management comments and the Management Comments section of the
report for the complete text of the comments.




                                             ii
Table of Contents

Executive Summary                                                        i

Background                                                              1

Objectives                                                              3

Finding
     Systems Inventory and Business Enterprise Architecture              4

Appendixes
     A. Scope and Methodology                                           11
     B. Prior Coverage                                                  13
     C. Report Distribution                                             14

Management Comments
     Under Secretary of Defense (Comptroller)/Chief Financial Officer   17
Background
    Financial Management Reform. The Secretary of Defense has positioned
    financial management reform as one of his highest priorities. On July 19, 2001,
    the Secretary of Defense issued a memorandum stating that DoD financial and
    non-financial operations and systems do not work effectively together to produce
    the most desirable financial management information. Accordingly, the Secretary
    of Defense established the DoD-wide Financial Management Modernization
    Program to correct the financial management systems deficiencies through the
    development of a DoD-wide Financial Management Enterprise Architecture. In
    addition, the Secretary of Defense directed the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer (USD[C]/CFO) to provide the policy for
    and oversee the execution of the Financial Management Modernization Program.
    On May 20, 2003, the USD(C)/CFO changed the name of the Financial
    Management Modernization Program and the Financial Management Enterprise
    Architecture to the Business Management Modernization Program (BMMP) and
    the Business Enterprise Architecture (BEA), respectively, to reflect the focus of
    transforming DoD business practices. The objective of the DoD BEA is to
    standardize and streamline DoD financially related business processes, correct
    long-standing financial management weaknesses, and ensure that investments in
    information technology effectively support performance of the DoD mission. The
    Business Modernization and Systems Integration (BMSI) Office is an entity that
    will be responsible for building and maintaining the architecture products,
    enterprise data strategy, and transition plan.

    Federal Financial Management Improvement Act of 1996. The Federal
    Financial Management Improvement Act (FFMIA) of 1996 mandates that
    agencies’ financial management systems comply substantially with Federal
    financial management system requirements. If an agency head determines that its
    systems do not comply with FFMIA, the agency must develop a remediation plan
    and file it with the Office of Management and Budget (OMB). The DoD
    Financial Management Improvement Plan update states that most of the DoD
    critical financial management systems do not comply with FFMIA, but that
    completion of the DoD BEA will make DoD FFMIA compliant.

    Enterprise Architecture. An enterprise architecture is a blueprint that defines
    the organizational mission, the information necessary to perform the mission, the
    technologies necessary to perform the mission, and the transitional processes for
    implementing new technologies. The Clinger-Cohen Act of 1996 requires
    executive agencies to develop and implement an information technology
    architecture. The DoD-wide enterprise architecture, called the Global
    Information Grid, is the responsibility of the Assistant Secretary of Defense
    (Networks and Information Integration)/DoD Chief Information Officer
    (ASD[NI2]/DoD CIO]). The DoD BEA is required to be integrated with the
    Global Information Grid architecture.

    BEA Contract. On April 9, 2002, the Office of the USD(C)/CFO selected
    International Business Machines (IBM) to develop the DoD BEA. IBM teamed
    with several contractors to form Team IBM, operating under the direction of the
    Office of the USD(C)/CFO, BMMP Office. The DoD BEA is a DoD-wide effort


                                        1
and includes all current and planned business systems. The DoD BEA includes
operational, systems, and technical views of the DoD “as-is” and “to-be”
environments.

        “As-Is” Architecture. Part of the BEA development is the “as-is”
architecture. The “as-is” architecture is the current baseline of operational,
systems, and technical information for DoD. As part of the “as-is” architecture,
the BEA is to include an inventory, housed in a data repository, that identifies all
business systems, including contractor and commercial systems and their
respective interfaces.

        “To-Be” Architecture. The “to-be” architecture is the target business
practices and operations for DoD and the supporting technical infrastructure. The
“to-be” architecture is to be fully integrated and depict how reliable, accurate, and
timely information will be made available to DoD decision makers across DoD
and at all organizational levels. According to the Financial Management
Improvement Plan update, complete implementation of the “to-be” architecture
will make the Department compliant with the FFMIA.

The contractor was also required to develop a transition plan for migrating from
the “as-is” environment to the “to-be.” The BEA, including the transition plan,
was delivered on schedule, April 30, 2003. General Accounting Office addressed
the BEA in Report No. GAO-03-877R, “Business Systems Modernization:
Summary of General Accounting Office’s Assessment of the Department of
Defense’s Initial Business Enterprise Architecture,” July 7, 2003.

The General Accounting Office report states that DoD expended tremendous
effort and resources and made important progress in complying with the
legislative requirements aimed at developing and implementing a well-defined
architecture. However, the initial version of the architecture does not adequately
address the FY 2003 National Defense Authorization Act requirements. DoD has
not implemented an effective investment management process for controlling
ongoing and planned business system improvements, including ensuring that
obligations in excess of $1 million are consistent with the architecture and
transition plan. DoD planned to develop a strategy for determining the resources
needed to further develop the architecture; for establishing an approach for
maintaining its existing systems inventory; and for evaluating the architecture for
completeness, accuracy, and integration of end-to-end business processes and
system functions.

Domain Owners. The BEA is partitioned into seven functional process domains.
Each domain has an owner responsible for managing and representing the domain
needs and priorities during the development of the enterprise transition plan,
validating the schedule terminating legacy systems, and implementing the BEA
within their respective domains. On February 28, 2003, the USD(C)/CFO issued
the “Appointment of Domain Owner Designees in Support of the Financial
Management Modernization Program” memorandum. The memorandum
established seven domains within the DoD business environment, DoD Services
and Agencies, and identified the ownership for each domain. The domains are
acquisition and procurement; finance, accounting operations, and financial
management; human resources management; logistics; strategic planning and


                                      2
    budgeting; installations and environment; and technical infrastructure. The
    domain owners are the Under Secretary of Defense for Acquisition, Technology,
    and Logistics; the USD(C)/CFO; the Under Secretary of Defense for Personnel
    and Readiness; and the ASD(NI2)/DoD CIO. Some domain owners are
    responsible for multiple domains.

    Information Technology Registry. The ASD(NI2)/DoD CIO maintains a
    database of Mission Critical (MC) and Mission Essential (ME) Information
    Technology (IT) systems. This database is known as the IT Registry. An MC IT
    system is a system that if lost would cause the stoppage of warfighter operations
    or direct mission support of warfighter operations. An ME IT system is a system
    that the acquiring Component Head determines is basic and necessary for the
    accomplishment of the organizational mission. The IT Registry currently
    contains 20 data fields of information on MC and ME DoD IT systems, including
    the owning Component, systems identification number, functional area,
    contingency plan, and point of contact information. According to the Office of
    ASD(NI2)/DoD CIO, the IT Registry contained 3,524 systems, as of April 1,
    2003.


Objectives
    Our overall objective was to assess the USD(C)/CFO enterprise architecture
    efforts to include evaluating the effectiveness of the enterprise architecture
    policies promulgated by the USD(C)/CFO and the impact on the DoD staff
    elements, as well as functional communities. We did not evaluate the
    management control program because the BEA initiative is the ongoing corrective
    action taken to address material weaknesses DoD identified in the FY 2002
    Performance Accountability Report.




                                        3
           Systems Inventory and Business
           Enterprise Architecture
           DoD does not have a systems inventory that is synchronized with the BEA
           initiative and that contributes to the business monitoring and reporting
           requirements levied by the OMB. This is because the USD(C)/CFO and
           the ASD(NI2)/DoD CIO have not established a single DoD-wide
           definition of a business management information technology system or
           established procedures for domain owners to develop and maintain a
           complete listing of systems within their domain. Further, the
           ASD(NI2)/DoD CIO had not expanded existing capabilities to fully meet
           the new DoD business system reporting requirements. As a result, DoD
           does not have a single-source repository to collect its business
           information, reduce the burden of multiple and costly data calls, and
           inform its transforming initiatives.


Authorization and Appropriation Act Requirements
    FY 2001 Legislation. Section 8102(a) of the FY 2001 National Defense
    Appropriations Act and Section 811(a) of the FY 2001 National Defense
    Authorization Act require that DoD:

           •   register MC/ME IT systems with the DoD CIO,
           •   maintain a consolidated inventory of those systems,
           •   identify interfaces between those systems and other systems, and
           •   develop and maintain system contingency plans.

    Further, DoD may not use appropriated funds for information technology systems
    not registered with the DoD CIO. The FY 2001 National Defense Appropriations
    Act directed the Secretary of Defense to define MC and ME IT systems and this
    responsibility was subsequently delegated to the DoD Components in the
    February 21, 2001, ASD(NI2)/DoD CIO, “DoD Information Technology IT
    Registry,” memorandum. That memorandum also states that the DoD CIO will
    use the DoD IT Registry as the repository of record to comply with the
    congressional requirements.

    FY 2003 Legislation. Section 1004 of the FY 2003 National Defense
    Authorization Act places the responsibility with the USD(C)/CFO to define DoD
    MC and ME business management systems and specifies the requirements for the
    BEA transition plan. Consequently, those business management systems will
    need to be included in the IT Registry once the USD(C)/CFO issues a definition.
    The transition plan is a capital investment roadmap for transitioning from the
    current “as-is” to the target “to-be” objective environment.




                                        4
    According to Section 1004, the transition plan shall include:

           •   the acquisition strategy for the BEA;

           •   a listing of the MC and ME DoD operational and developmental
               financial and non-financial management systems, as defined by the
               USD(C)/CFO, including the costs and estimated costs to maintain
               those system during FY 2002 and FY 2003 respectively; and

           •   a listing of the systems that will not be part of the objective financial
               and non-financial management system, with a schedule for terminating
               those legacy systems.

    To comply with Section 1004, the USD(C)/CFO issued the January 10, 2003,
    “Financial Management Enterprise Architecture System Inventory,”
    memorandum. The January 10, 2003, memorandum cites the Section 1004
    transition plan requirements and requests cost data on systems, identified through
    previous data calls, from the DoD Components. In addition, the memorandum
    requests that DoD Components ensure that all of their systems are identified.

    On May 9, 2003, the Office of USD(C)/CFO released its response to the
    requirements of the FY 2003 National Defense Authorization Act. According to
    the response, the initial version of the BEA, including a transition plan and
    governance oversight process to help implement the architecture, was delivered
    on schedule and under budget on April 30, 2003.


BEA and Reporting Requirements
    In its current state, the IT Registry is not synchronized with the BEA initiative
    and does not support the DoD response to the business monitoring and reporting
    requirements levied by OMB. DoD is required to ensure that IT is acquired, used,
    and managed to improve the performance of DoD missions and improve the
    responsibility and accountability of the OMB and all other Federal agencies to
    Congress and to the public for implementing information resources management.
    The DoD CIO-maintained IT Registry has not been a useful information source
    for the development of the BEA or the transition plan. In addition, the IT
    Registry does not include data requirements that could streamline the DoD budget
    process.

    IT Registry and the BEA. The IT Registry reporting requirements do not
    correlate with the scope of the BEA because they do not address the intent of the
    FY 2003 National Defense Authorization Act. The February 21, 2001,




                                         5
memorandum does not require all business management systems to be reported in
the IT Registry. Systems must be registered if the Component Head deems:

       •   the loss of the system would cause the stoppage of warfighter
           operations or direct mission support of the warfighters or

       •   the system basic and necessary for the accomplishment of the
           organizational mission.

The definitions are subject to interpretation and, as a result, the IT Registry will
not necessarily capture the universe of current DoD business management
systems. The BMMP and Team IBM, the DoD program management office and
contractor tasked with the BEA development, had a 1-year timeline to develop the
BEA, which included an “as-is” architecture and respective systems inventory.
Having a central and complete data repository in place at the beginning of the
effort would have enhanced the efficiency of the BEA effort and lessened the
considerable workload of the BMMP. For example, the transition plan is to
document the deficiencies and steps needed to bring each noncompliant business
system to be included in target or intermediate architectures into compliance with
Federal financial management systems requirements. The FY 2003 National
Defense Authorization Act required DoD to report to Congress its decision about
all business management systems, which systems will be part of the enterprise
architecture, and a plan for phasing out the others by May 1, 2003. In its response
to those requirements, the USD (C)/CFO delivered the required systems inventory
and associated phase-out plan on April 30, 2003.

Because the IT Registry could not provide the information required by Congress,
the USD(C)/CFO issued numerous data calls, supporting the BEA, to gather
systems information and build an “as-is” inventory. The January 10, 2003,
memorandum requested cost information for the transition plan required by the
FY 2003 National Defense Authorization Act. According to BMMP personnel,
this yielded a database of about 2,000 non-warfighting systems. However, a
BMMP staff member was not confident that their inventory was complete, and
stated that she believed that the actual number of non-warfighting systems was
much higher. Personnel in the Office of the USD(C)/CFO stated that the Office
of the USD(C)/CFO was considering consolidating the “as-is” inventory, the
ASD(NI2)/DoD CIO budget database, and the current IT Registry to create the
database needed by April 2003. This workaround still may not provide the
BMMP with a complete inventory of systems that should be part of the transition
plan. In its response to the requirements of the FY 2003 National Defense
Authorization Act, the Office of the USD(C)/CFO stated that the sources actually
used to compile the inventory of 2,832 DoD business systems were the
ASD(NI2)/DoD CIO budget database, information from the “as-is” inventory, and
information provided in response to the January 10, 2003, USD(C/CFO) data call
memorandum.

BMMP personnel stated that the BMMP needs to be aware of all systems to
successfully implement the transition plan. Domain owners will be ultimately
responsible for portfolio management and enforcing compliance with architecture,


                                     6
    data strategy, and transition plans for each of the seven domains. In performing
    this responsibility, domain owners will be required to ensure domain funds are
    appropriately allocated to meet domain and enterprise objectives, conduct reviews
    of legacy systems and their currency with transition plans, and withhold funds
    from noncompliant systems. The BMMP transition plan was delivered on
    April 30, 2003. The BMSI and domain owners will now begin implementation of
    the transition plan over the next 5 years. They will not be able to transition
    systems if they are unaware of them. The BMSI and domain owners need a
    complete listing of baseline systems before they can make decisions required
    about the current architecture.

    The USD(C)/CFO and the ASD(NI2)/DoD CIO need to establish procedures to
    verify that domain owners develop and maintain a complete listing of systems
    within their respective domain. Further, USD(C)/CFO and the ASD(NI2)/DoD
    CIO need to be able to verify that the data included in the domain database mirror
    what is included in the IT Registry and any other databases maintained for
    systems in a particular domain to enhance budget decisions.

    IT Registry and the Budget Process. OMB Circular A-127, “Financial
    Management Systems,” July 23, 1993, requires DoD to develop and maintain a
    DoD-wide inventory of existing and proposed financial management systems.
    Further, OMB Circular A-130, “Management of Federal Information
    Resources,” February 8, 1996, requires DoD to establish information system
    management oversight mechanisms that ensure that financial management
    systems conform to the requirements of OMB Circular No. A-127.

    In addition, the OMB currently requires DoD to prepare three budget exhibits
    related to DoD business management systems, Exhibit 52, Exhibit 53, and
    Exhibit 300. Based on OMB guidance and data provided by the various DoD
    Components, Exhibit 52 is prepared by the Office of the USD(C)/CFO, and
    Exhibits 53 and 300 are prepared by the ASD(NI2)/DoD CIO. Those three
    exhibits provide information that is related and overlapping in certain areas.

    Including certain Exhibit 52, 53, and 300 reporting information in a central
    repository, such as the IT Registry, would promote consistent and efficient DoD
    budget reporting. Personnel in the Office of the ASD(NI2)/DoD CIO stated that
    the various reports required by OMB are currently created using software,
    crosswalks, and the Information Technology Management Application to collect
    system information. However, the Office of the ASD(NI2)/DoD CIO personnel
    stated that about $250,000 and much time is spent per year because DoD lacks
    consistent and centrally located information needed for Exhibits 53 and 300.


Definition and Expansion
    Although required by the FY 2003 National Defense Authorization Act, the
    USD(C)/CFO has not provided a definition for a DoD business management
    information technology system, and the IT Registry has not been expanded to
    meet the new statutory and management reporting requirements. Specifically, the
    Office of the ASD(NI2)/DoD CIO has not expanded the IT Registry to include


                                        7
    requirements that would promote the BEA transition plan implementation and
    streamline the DoD budget process.

    Expansion of the IT Registry. The Office of the ASD(NI2)/DoD CIO began
    efforts to update the IT Registry to incorporate a greater breadth of systems
    information. A group, known as the Tiger Team, is leading this effort. The Tiger
    Team is currently drafting guidance to update the original February 21, 2001, IT
    Registry memorandum and is coordinating with the BMMP to include
    requirements for business systems. In the interim, the DoD Deputy CIO finalized
    guidance and issued a policy memorandum, “Department of Defense Information
    Technology (IT) Registry Interim Guidance,” on March 17, 2003. This interim
    guidance does not expand on the requirements to register business systems
    because, according to personnel in the Office of the Deputy CIO, the office had
    not received USD(C)/CFO requirements for incorporation.

    Business System Definition. The FY 2003 National Defense Authorization Act
    states that the USD(C)/CFO is to provide a definition of a DoD business
    management information technology system. The USD(C)/CFO has not officially
    provided such a definition; however, on April 1, 2003, the Office of the
    USD(C)/CFO provided to the IT Tiger Team the definition of business systems
    and requirements for registration. The Office of the USD(C)/CFO stated that a
    business system is any IT system that accepts or creates a transaction that results
    in a financial event or maintains the source data for a financial event. Any
    business system used by DoD meeting at least one of the following criteria must
    be registered:

           •   $1 million or more is spent per fiscal year on the development,
               deployment, sustainment, operations, and/or retirement of that system;

           •   the system interfaces with another system;

           •   the system is deployed to multiple users; or

           •   the system has more than 50 users.

    Once the Office of the USD(C)/CFO issues an official definition for business
    technology systems, system owners will be required to register essentially all
    business systems with the DoD CIO. The FY 2003 National Defense
    Authorization Act requires the Office of the USD(C)/CFO to establish a definition
    for business systems; therefore, this report does not make a recommendation
    regarding a business system definition.


Conclusion
    This audit focused on business systems and did not cover weapons and
    intelligence systems. DoD does not have a single-source repository to collect its
    business information. Specifically, both USD(C)/CFO and ASD(NI2)/DoD CIO
    use other means to prepare and report budget data pertaining to IT systems. The
    USD(C)/CFO has not relied on the IT Registry to develop its list of systems to be


                                         8
    reported to Congress but has issued separate data calls. Because the IT Registry
    does not correlate to the scope of the BEA, it does not contain the robustness

    needed for the BEA. The USD(C)/CFO and ASD(NI2)/DoD CIO should
    streamline the various DoD reporting requirements and eliminate IT information
    collection redundancy.


Recommendations, Management Comments, and Audit
  Response
    We recommend that the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer and the Assistant Secretary of Defense (Networks and
    Information Integration)/Department of Defense Chief Information Officer,
    as part of the Business Modernization and Systems Integration Governance
    Concept:

           1. Establish a single repository for business systems information,
    which includes all data elements necessary for architecture development and
    budget.

    Management Comments. The Under Secretary of Defense (Comptroller)/Chief
    Financial Officer concurred and stated that his office would establish an
    integrated repository instead of a single repository. The integrated repository will
    contain data elements defined during the development of the recently completed
    DoD business systems inventory. Furthermore, the Comptroller stated that he and
    the Assistant Secretary of Defense (Networks and Information
    Integration)/Department of Defense Chief Information Officer are committed to
    building on the DoD business systems inventory to provide a net-centric source of
    systems information for both budget and architecture use that will be available to
    support the next annual DoD systems inventory report.

    Audit Response. We consider the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer comments partially responsive. We
    recommended a single-source repository because integrating information from
    multiple sources in an organization as complex and diverse as DoD, lends itself to
    continued inconsistencies and inaccuracies. The establishment of an integrated
    repository may not be consistent with the primary objective of the BEA. The
    systems inventory used to manage and measure the DoD BEA should be a single-
    source repository that is standardized and streamlined. We request that the Under
    Secretary of Defense (Comptroller)/Chief Financial Officer provide clarification
    on the benefits of implementing an integrated repository vice a single database.

          2. Establish procedures to verify through the architecture domain
    owners that:

                 a. the data included in the architecture domain database
    mirror what is included in the IT Registry and any other databases
    maintained for systems in the particular domain; and



                                         9
                  b. the completeness of the data is verified periodically to
    ensure that the data are kept current, consistent, and accurate to enhance
    budget decisions and respond to Office of Management and Budget and
    Congressional reporting requirements.

    Management Comments. The Under Secretary of Defense (Comptroller)/Chief
    Financial Officer concurred and stated that the domain owners will use the
    information in the repository established for the “as-is” and “to-be” processes to
    control and prioritize their architecture initiatives.

    Audit Response. Although the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer concurred, we consider the comments partially responsive. The
    comments do not address establishing procedures to verify that the data contained
    in the architecture domain database mirror other databases, including the DoD
    CIO-maintained IT Registry. In addition, the comments do not address
    procedures for verifying that consistent and accurate information is maintained.
    This information is fundamental to domain architecture control and prioritization,
    and it is essential that procedures are established and implemented to maintain the
    accuracy, consistency, and currency of that information. We request that the
    Under Secretary of Defense (Comptroller)/Chief Financial Officer provide
    additional comments.


Management Comments Required
    The Assistant Secretary of Defense for Networks and Information
    Integration/Department of Defense Chief Information Officer did not comment on
    a draft of this report. We request that the Assistant Secretary of Defense for
    Networks and Information Integration/Department of Defense Chief Information
    Officer provide comments on the final report.




                                        10
Appendix A. Scope and Methodology
   We evaluated the DoD environment as it related to the BEA initiative. This audit
   focused on business systems and did not cover weapons and intelligence systems.
   Specifically, we assessed the need for a DoD-wide systems inventory for its BEA
   transition. We reviewed Secretary of Defense and USD(C)/CFO issuances
   relating to the BEA, governance structure, and supporting data calls from July 19,
   2001, through February 28, 2003. In addition, we reviewed the BEA Statement of
   Work and the “as-is” systems inventory requirements as well as system
   inventories accumulated by BMMP as of August 2002 and January 2003, and the
   BMMP reconciliation from the January 2003 data call. We reviewed the
   ASD(NI2)/DoD CIO memorandums, “DoD Information Technology Registry,”
   February 21, 2001, and “DoD Information Technology Registry Interim
   Guidance,” March 17, 2003, to determine requirements for the IT Registry.

   We reviewed legislative documentation relating to the BEA and systems
   inventory requirements for DoD, including the FY 2001 National Defense
   Authorization and Appropriation Acts; the FY 2003 National Defense
   Authorization Act; the Clinger-Cohen Act of 1996; and section 3501, title 44,
   chapter 35, United States Code. We reviewed Office of Management and Budget
   guidance, including Circulars A-127 and A-130, to determine Federal systems
   inventory requirements. We also reviewed sections of OMB Circular A-11,
   “Preparation, Submission, and Execution of the Budget,” June 2002 to obtain
   information regarding Federal budget requirements.

   We conducted meetings with personnel within various DoD Components
   responsible for coordinating the BEA initiative, including personnel in the Office
   of the Under Secretary of Defense for Acquisition, Technology, and Logistics,
   USD(C)/CFO, and ASD(NI2)/DoD CIO, and the Army, the Navy, and the Air
   Force. We conducted meetings and telephone conversations with personnel in the
   BMMP Office. From October 2002 through March 2003, we attended BEA
   working group sessions as observers. These working group sessions were the
   vehicle the BMMP used to communicate its plans for the BEA with the DoD
   Components and gather feedback. We also attended several IT Registry Tiger
   Team meetings as observers from December 2002 through February 2003 to
   develop an understanding of what steps the Office of the ASD(NI2)/DoD CIO
   was taking to include the requirements of the FY 2003 National Defense
   Authorization Act as related to the BEA.

   We performed this audit from June 2002 through April 2003 in accordance with
   generally accepted government auditing standards. However, we updated
   information in this report to reflect the DoD BEA Response to the FY 2003
   National Defense Authorization Act, dated May 9, 2003. We did not review the
   management control program as it related to the announced objectives. The
   original audit objective was to assess the USD(C)/CFO enterprise architecture
   efforts as well as the management controls for that objective. However, the
   initiative is ongoing and is identified in the DoD FY 2002 Performance
   Accountability Report as the ongoing corrective action taken to address the
   Financial Management Systems and Processes systemic weakness.



                                       11
Use of Computer-Processed Data. We did not use computer-processed data to
perform this audit.

General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in DoD. This report provides coverage of
the effective management of information technology investments high-risk area.




                                   12
Appendix B. Prior Coverage
     During the last 5 years, the General Accounting Office (GAO) and the Inspector
     General of the Department of Defense (IG DoD) have issued eight reports
     discussing DoD Enterprise Architectures. Unrestricted GAO reports can be
     accessed over the Internet at http://www.gao.gov. Unrestricted Inspector General
     of the Department of Defense reports can be accessed at
     http://www.dodig.osd.mil/audit/reports.


General Accounting Office
     GAO Report No. 03-877R, “Business Systems Modernization: Summary of
     GAO’s Assessment of the Department of Defense’s Initial Business Enterprise
     Architecture,” July 7, 2003

     GAO Report No. 03-553T, “DOD Business Systems Modernization:
     Longstanding Management and Oversight Weaknesses Continue to Put
     Investments at Risk,” March 31, 2003

     GAO Report No. 03-571R, “Information Technology: Observations on
     Department of Defense’s Draft Enterprise Architecture,” March 28, 2003

     GAO Report No. 03-458, “DoD Business Systems Modernization: Improvements
     to Enterprise Architecture Development and Implementation Efforts Needed,”
     February 28, 2003

     GAO Report No. 02-497T, “DoD Financial Management: Integrated Approach,
     Accountability, Transparency, and Incentives Are Keys to Effective Reform,”
     March 6, 2002

     GAO Report No. 01-525, “Information Technology: Architecture Needed to
     Guide Modernization of DoD’s Financial Operations,” May 17, 2001


Inspector General of the Department of Defense
     IG DoD Report No. D-2002-044, “DoD Financial and Feeder Systems
     Compliance Process,” January 29, 2002

     IG DoD Report No. D-2002-014, “Development of the Defense Finance and
     Accounting Service Corporate Database and Other Financial Management
     Systems,” November 7, 2001




                                        13
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Installations and Environment)
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Under Secretary of Defense (Financial Management)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Networks and Information Integration)/Department of
  Defense Chief Information Officer
  Deputy Assistant Secretary of Defense Deputy Chief Information Officer
  Deputy Assistant Secretary of Defense for Resources

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force




                                          14
Other Defense Organizations
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                         15
Under Secretary of Defense (Comptroller)/Chief
Financial Officer Comments




                       17
18
Team Members
The Defense Financial Auditing Service Directorate, Office of the Deputy
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Kathryn M. Truex
Scott S. Brittingham
Margaret R. Westfall
